                  Oversight of the Business Systems
              Modernization Contractor Needs Improvement

                                   January 2004

                       Reference Number: 2004-20-034




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      January 28, 2004


       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                          Gordon C. Milbourn III
                                      Assistant Inspector General for Audit (Small Business and
                                      Corporate Programs)

       SUBJECT:                       Final Audit Report - Oversight of the Business Systems
                                      Modernization Contractor Needs Improvement
                                      (Audit # 200320028)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       oversight of the Business Systems Modernization (BSM) Contractor. The overall
       objective of our review was to determine whether the Business Systems Modernization
       Office (BSMO) implemented effective processes to ensure the BSM contractor,
       Computer Sciences Corporation (CSC),1 addressed and improved the areas of concern
       identified by the IRS in April 2002.
       In summary, the BSM program is progressing slowly and continues to face many
       challenges. Four major modernization projects2 are experiencing significant cost
       increases and missing proposed completion dates. Over the past several years, we
       have provided the BSMO with recommendations and corrective actions that would
       strengthen controls and improve processes to help reduce some of the concerns.
       In April 2002, the IRS issued a letter to the CSC that identified concerns and
       improvements that were needed in the BSM program. The first IRS concern involved
       the CSC’s responsibility to ensure all essential business requirements3 for the proposed
       new computer systems were defined by the CSC and its major subcontractors. The IRS
       emphasized that the requirements must be defined before the projects’ development


       1
         The CSC was selected as the PRIME contractor to integrate the IRS’ systems modernization efforts.
       2
         The Infrastructure Shared Services, Customer Account Data Engine, Integrated Financial System, and e-Services
       projects.
       3
         Business requirements refer to the essential functional and operational capabilities that should be provided by the
       proposed new computer systems and business processes.
                                                        2


phase4 of work. The IRS also required written assurance from the CSC that its major
subcontractors had identified all significant business requirements and performed their
work with adequate diligence.
The second IRS concern involved the qualifications needed by key personnel from the
CSC and its subcontractors. The qualifications were listed and key personnel were
defined as project managers, team leaders, systems or project architects, lead analysts
and designers, project planners, and cost estimators who have significant responsibility
for technical or management decision making.
The first concern raised by the IRS has been addressed. The CSC timely notifies IRS
management of proposed changes to the business requirements of the modernization
projects. However, the projects are still experiencing a significant number of changes
related to business requirements subsequent to the design phase.5
In addition, the IRS continues to approve the development of the new computer
systems without obtaining written assurance from the CSC that the new computer
systems will meet the needs of the IRS. The BSMO officials informed us that they did
not believe obtaining written assurance from the CSC would solve any problems. For
the Customer Account Data Engine (CADE) project, the IRS is currently spending
additional funds to have the Software Engineering Institute at Carnegie Mellon
University conduct an independent technical assessment.
The second concern, involving qualifications needed by key personnel from the CSC
and its major subcontractors, has not been addressed. The BSMO has not established
an effective process to ensure the CSC selects and assigns qualified key personnel to
the BSM program. We found inconsistencies in how the IRS project managers approve
key personnel proposed by the CSC. Several of the IRS project managers were
unaware of the qualifications required by the IRS’ April 2002 letter because the contents
of the letter were never provided as guidance to the BSMO staff.
Concerns similar to the ones that necessitated the IRS’ letter to the CSC have
continued to occur in the BSM program. Examples include:
    •   The CADE project, originally estimated to cost $50 million and scheduled to be
        released in January 2002, has been delayed. A new release date has not been
        set. CSC officials admitted that one of the reasons for the latest delay was
        because the staff from one of the CSC’s major subcontractors did not have
        experience with large projects.




4
  The development phase of a modernization project is that in which the computer system is built. The proposed
new system is integrated with other IRS computer systems, tested, and piloted.
5
  The design phase of a modernization project is that in which the components of the new computer system are
analyzed and designed. The significant business requirements for the new computer system are identified and
documented.
                                                        3


    •   The e-Services project, a $60 million project originally promised for June 2002,
        delayed its initial release until August 2003 at an estimated cost of over
        $135 million.
    •   The Integrated Financial System project, originally estimated to cost $36 million
        and scheduled to be released in October 2003, has been delayed. The new
        release date is scheduled for early 2004. A new cost estimate has not been set.
To more clearly define the CSC’s responsibility to fully document the business
requirements prior to beginning system development, we recommended that the Chief
Information Officer (CIO) ensure future task orders include the requirement that the
CSC provide written assurance that it and its subcontractors performed adequate
diligence in defining all significant business requirements and that the proposed new
systems will deliver all of the essential functional and operational capabilities needed by
the systems’ users. We also recommended that the CIO require the BSMO to conduct
an analysis of future change requests6 to determine whether the change should have
been part of the contractor’s normal requirements gathering.
To ensure all CSC and subcontractor personnel have the necessary qualifications and
expertise, we recommended that the CIO require the BSMO to adopt the definition of
key personnel from the IRS’ April 2002 letter and incorporate all key personnel and their
required qualifications into the task orders.7 The CIO should also require the contractor
to submit a plan to assure the IRS that all currently assigned key CSC and
subcontractor personnel have the necessary expertise.
Management’s Response: Management fully agreed with three of our
recommendations, partially agreed with one recommendation, and disagreed with the
final recommendation. IRS management plans to take the following actions: formally
institute a checkpoint in the development process where detailed specifications will be
established, require the CSC to formally give its written assurance at this checkpoint
under fixed-price contracts for all systems development and implementation projects,
include contracting language to hold the CSC accountable for any material
requirements under the agreed contract price, and monitor accepted corrective actions
on a monthly basis until completion.
IRS management also plans to standardize procedures to identify and review the
qualifications of key CSC personnel and subcontractor personnel and establish an
Education and Experience Matrix that identifies education requirements, experience,
and responsibilities for key personnel. The Office of Procurement will develop template
language to be included in each task order, excluding fixed-price contracts.
Management’s complete response to the draft report is included as Appendix IV.



6
 A change request is a document initiated by the IRS or the CSC to propose a change to a computer system.
7
 Task orders are contracts the IRS signs with the CSC. The task orders describe the work to be performed by the
CSC.
                                                      4


Office of Audit Comment: Management is implementing an alternate corrective action
for our first recommendation, which requires written assurance from the CSC to perform
adequate diligence in defining all significant business requirements. We agree with
their corrective action because, under the new CIO directive, the CSC will provide its
written assurance at a new checkpoint.
Management partially disagreed with our recommendation to review key personnel
proposed by the CSC under fixed-price contracts. For fixed-priced contracts,
management does not believe they should be in a position of vetting the PRIME team8
and will not perform any special personnel reviews.
Management also disagreed with our recommendation that the CIO require the CSC to
submit a plan assuring the IRS that all currently assigned key CSC and subcontractor
personnel either (1) have the necessary expertise, (2) can acquire the necessary
expertise, or (3) will be replaced in a reasonable time period. They stated it is not
feasible or cost effective at this time, and key personnel should be retained unless their
performance is unsatisfactory.
Based on the history of the BSM projects being delayed and over budget, we believe
our recommendations could help avoid future project delays and cost increases for
existing and future contracts, regardless of the type of contract, by assuring qualified
personnel are assigned to projects. While we still believe our recommendations are
worthwhile, we do not intend to elevate our disagreement concerning it to the
Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.




8
 The CSC heads an alliance, the PRIME Alliance, of leading technology companies to help modernize the IRS
business and computer systems.
                                   Oversight of the Business Systems
                               Modernization Contractor Needs Improvement




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Is Timely Notified of
Changes to Business Requirements ......................................................... Page 4
The Internal Revenue Service Did Not Obtain Written Assurance
That New Computer Systems Will Meet Business Requirements ............. Page 5
         Recommendation 1: ...................................................................... Page 7

         Recommendation 2: ...................................................................... Page 8

The Business Systems Modernization Office Has Not
Implemented an Effective Process to Ensure
Qualified Contractors Work in the Modernization Program........................ Page 8
         Recommendation 3: ...................................................................... Page 11

         Recommendations 4 and 5: .......................................................... Page 12

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 13
Appendix II – Major Contributors to This Report........................................ Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Management’s Response to the Draft Report .................... Page 17
                 Oversight of the Business Systems
             Modernization Contractor Needs Improvement

                        The Internal Revenue Service (IRS) is currently in the midst
Background
                        of a multiyear, multibillion dollar effort to modernize its
                        information technology and business systems. The IRS
                        Business Systems Modernization Office (BSMO) manages
                        the modernization efforts and oversees the work of the
                        PRIME contractor, Computer Sciences Corporation (CSC),
                        which the IRS hired in December 1998. The CSC heads an
                        alliance, the PRIME Alliance, of leading technology
                        companies to help modernize the IRS business and
                        computer systems.
                        The Business Systems Modernization (BSM) program
                        continues to face many challenges, such as continued
                        project cost increases and deployment delays. We
                        previously reported areas of concern and recommended
                        actions that would enable the IRS to strengthen its oversight
                        of the PRIME contractor. For example, in a previous report1
                        on the use of performance-based contracting in the BSMO,
                        we discussed how performance standards often focused on
                        the production of documentation rather than the
                        development of the business systems. We reported that the
                        plans for monitoring contractor performance were
                        subjective and not always consistent among projects and
                        that the use of recommended firm fixed-price task orders2
                        had decreased. We recommended improvements in the use
                        of performance-based contracting to address these issues.
                        In another report,3 we discussed how significant changes to
                        the e-Services project’s business requirements4 and setbacks
                        in other development efforts resulted in increased costs and


                        1
                          Additional Improvements Are Needed in the Application of
                        Performance-Based Contracting to Business Systems Modernization
                        Projects (Reference Number 2002-20-170, dated September 2002).
                         2
                           Task orders are contracts the IRS writes with the CSC. The task
                        orders describe the work to be performed by the CSC. A firm
                        fixed-price task order sets a price that is not subject to any adjustment
                        because of cost overruns incurred by the contractor.
                        3
                          Improvements Are Needed in the Management of the e-Services
                        Project to Enable Timely Progress Towards Future Goals
                         (Reference Number 2001-20-144, dated September 2001).
                        4
                          Business requirements refer to essential functional and operational
                        capabilities that should be provided by the proposed new computer
                        systems and business processes.
                                                                                           Page 1
    Oversight of the Business Systems
Modernization Contractor Needs Improvement

           delays in completing the project. The IRS estimated, in
           April 2000, that the project would require $3.8 million to
           complete its design phase by September 2000. However, by
           March 2001, the estimated costs to complete this phase
           increased to over $17 million and the expected date of
           completion had been delayed until June 2001. Much of this
           increased cost and delay in project development was due to
           significant changes to the project’s requirements.
           Therefore, we recommended the BSMO ensure the
           e-Services project team identify, evaluate, and monitor all
           significant dependencies on the other modernization
           projects.
           The IRS has also identified concerns with the results of the
           BSM program. In April 2002, the IRS issued a letter to the
           CSC addressing significant concerns that were being
           encountered in the BSM program and the CSC’s
           responsibilities in relation to those concerns. The IRS
           presented two main issues and the corrective actions needed
           to ensure future success.
           The first concern the IRS identified involved the CSC’s
           responsibility to ensure all essential business requirements
           were defined by the CSC and its major subcontractors. The
           letter stated:
                   When CSC proposes that the IRS approve [the] exit
                   of milestone 35 for any project, we will require
                   written assurance from CSC that its major
                   subcontractors have done adequate diligence
                   concerning the relevant scope of IRS operations
                   (i.e., operations directly affected by the project) to
                   assure that all essential functional and operational
                   capabilities will be provided by the proposed new
                   systems and business processes. These capabilities
                   should be documented in the form of the business




           5
            Milestone 3 is the term used to refer to the design phase of the IRS
           system development life cycle methodology. This is the work phase in
           which the new computer system and its requirements are analyzed,
           designed, and documented.
                                                                          Page 2
    Oversight of the Business Systems
Modernization Contractor Needs Improvement

                   requirements that are called for in the life cycle
                   methodology6 at the exit of milestone 3.
           The life cycle methodology the IRS adopted presumes all
           significant business requirements are defined before a BSM
           project completes the design phase at milestone 3. Defining
           these business requirements is the CSC’s responsibility.
           The IRS required that all necessary changes to business
           requirements that arise after a project exits milestone 3 be
           called to the attention of IRS management on a timely basis.
           The second concern raised by the IRS involved the
           qualifications needed by key personnel from the PRIME
           Alliance. The IRS required all key CSC and subcontractor
           personnel to have three capabilities:
               1. Demonstrated track record of successful projects that
                  include business process reengineering and business
                  systems implementation in financial services
                  organizations in the private and/or governmental
                  sectors.
               2. Demonstrated expertise in the more specific business
                  functional areas covered by the project, such as
                  collections or customer service.
               3. Either a track record of successful work with the IRS
                  that demonstrates an in-depth understanding of IRS
                  operations and the IRS enterprise architecture, or a
                  clear plan to acquire such expertise in a manner
                  which is not at the expense of the IRS.
           The IRS defined key personnel as persons such as project
           managers, team leaders, systems or project architects, lead
           analysts and designers, project planners, and cost estimators
           who have significant responsibility for technical or
           management decision making.
           The IRS requested the CSC to submit a plan to assure that
           all currently assigned key personnel either (1) have the
           necessary expertise in the above three areas, (2) can rapidly


           6
            Life cycle methodology refers to the processes and procedures the
           modernization program follows to design, develop, and deploy the new
           computer systems.
                                                                         Page 3
                            Oversight of the Business Systems
                        Modernization Contractor Needs Improvement

                                   acquire that expertise at the CSC’s expense, or (3) will be
                                   replaced in a reasonable time period with individuals who
                                   have the necessary expertise.
                                   Our audit was conducted in the BSMO facilities in
                                   Lanham, Maryland, between May and September 2003 in
                                   accordance with Government Auditing Standards. Detailed
                                   information on our audit objective, scope, and methodology
                                   is presented in Appendix I. Major contributors to the report
                                   are listed in Appendix II.
                                   The IRS required the CSC to timely notify IRS management
The Internal Revenue Service Is
                                   of any significant changes to business requirements that
Timely Notified of Changes to
                                   arise after a project exits milestone 3 so that informed
Business Requirements
                                   decisions could be made at the appropriate level. IRS
                                   management could then decide whether to modify the new
                                   computer system being built or incorporate the newly
                                   identified business requirement(s) into a subsequent release7
                                   of the project.
                                   This requirement has been met. IRS management is timely
                                   notified of proposed changes to the business requirements of
                                   modernization projects. The BSMO project managers of the
                                   four projects we reviewed8 are adequately involved with the
                                   ongoing development and deployment activities and are
                                   fully aware of changes to the projects’ business
                                   requirements.
                                   Although the concern of the IRS receiving timely
                                   notification of changes to business requirements has been
                                   addressed, the projects are still experiencing a significant
                                   number of changes after they complete milestone 3, referred
                                   to as the design phase. As the IRS emphasized in its April
                                   2002 letter, the CSC is responsible for identifying all
                                   significant business requirements for the projects prior to
                                   the exit of milestone 3.




                                   7
                                     Modernization projects usually have multiple releases in which new
                                   computer systems are updated with additional features.
                                   8
                                     We interviewed the IRS project directors for the Infrastructure Shared
                                   Services, Customer Account Data Engine, Integrated Financial System,
                                   and e-Services projects.
                                                                                                    Page 4
                         Oversight of the Business Systems
                     Modernization Contractor Needs Improvement

                                Changes to the requirements of computer systems that have
                                already entered the development phase9 have contributed to
                                delays in completing the projects. The extent of these
                                changes and the delays experienced by the modernization
                                projects are discussed in the next section of this report.

The Internal Revenue Service    As stated in the Background section of this report, we
Did Not Obtain Written          previously reported that significant changes to a project’s
Assurance That New Computer     requirements resulted in increased costs and delays in
Systems Will Meet Business      completing the new computer system. The IRS also
Requirements                    recognized this concern.
                                To help alleviate the concern, the IRS informed the CSC
                                that the IRS would require written assurance from the CSC
                                that its major subcontractors had conducted their work with
                                adequate diligence. The IRS wanted written assurance from
                                the CSC that major subcontractors considered all IRS
                                operations affected by the proposed new systems and that all
                                essential capabilities would be provided by the new
                                systems. These capabilities should be documented in the
                                form of the business requirements that are called for in the
                                Enterprise Life Cycle (ELC) methodology10 when the
                                system exits the design phase and begins the development
                                phase.
                                The ELC presumes all significant business requirements
                                have been defined in a Systems Requirements Report (SRR)
                                before a project moves into development. The SRR is a
                                formal contract deliverable due at the end of the design
                                phase.
                                The Filing and Payment Compliance and the Integrated
                                Financial System (IFS) projects both received approval to
                                exit the design phase after the IRS issued its April 2002
                                letter to the CSC. However, the BSMO did not obtain
                                written assurance from the CSC that all significant business
                                requirements were defined for these two projects and that


                                9
                                  The development phase of a modernization project is that in which the
                                computer system is built. The proposed new system is integrated with
                                other IRS computer systems, tested, and piloted.
                                10
                                   The IRS and the PRIME contractor follow the ELC methodology to
                                design and develop the new computer systems. The ELC contains the
                                processes and procedures that should be followed.
                                                                                                Page 5
    Oversight of the Business Systems
Modernization Contractor Needs Improvement

           the new systems would deliver all of the essential functional
           and operational capabilities needed by the systems’ users.
           Key BSMO officials informed us they did not believe
           obtaining written assurance from the CSC would solve any
           problems or reduce the volume of requirements changes.
           They stated that although a complete analysis of change
           requests11 has not been performed, a large majority of the
           changes to requirements are unavoidable due to changes in
           the tax laws. While this may be true, we believe that written
           assurance would help reduce the excessive number of
           changes to the business requirements. Changes to tax laws
           do add a degree of complexity to the design of computer
           systems; however, tax law changes are not unforeseeable.
           Computer systems should be designed to accommodate
           these variables.
           The Filing and Payment Compliance project was postponed
           in December 2002 shortly after completing its design phase.
           Therefore, there have been no changes to the business
           requirements for this project. However, the IFS project,
           originally estimated to cost $36 million and scheduled to be
           released in October 2003, has been delayed. The new
           release date is April 2004. A new cost estimate has not been
           set. The IFS project is currently experiencing changes to its
           originally proposed requirements.
           Table 1 presents the effect of extensive changes to the
           business requirements of four key modernization projects
           that completed milestone 3 and began the development
           phase.




           11
             A change request is a document initiated by the IRS or the CSC to
           propose a change to a computer system.
                                                                          Page 6
    Oversight of the Business Systems
Modernization Contractor Needs Improvement

                  Table 1: Project Change Requests as of July 7, 2003

                                               Approved
                 BSM           Development      Change        Completion
                Projects        Start Date     Requests         Status

               Security and       1/2001           48           Delayed
               Technology                                      6 months,
              Infrastructure                                5/2002 - 11/2002
             Release (STIR)

               Customer           6/2001          38          Delayed since
              Account Data                                     1/2002. No
                 Engine                                      release date has
                (CADE)                                           been set.

                  IFS             2/2003           7            Delayed
                                                               7 months,
                                                            10/2003 - 4/2004

               e-Services         7/2001           56           Delayed
                                                              14 months,
                                                            6/2002 - 8/2003

           Sources: Data summarized from the IRS Change Request Tracking
           system and our audit results.

           For the CADE project, the IRS is currently spending
           additional funds to have the Software Engineering Institute
           at Carnegie Mellon University conduct an independent
           technical assessment.
           The e-Services project, a $60 million project originally
           promised in June 2002, was delayed until August 2003 at an
           estimated cost of over $135 million.

           Recommendations

           To more clearly define the CSC’s responsibility to fully
           document the business requirements prior to beginning
           system development, we recommend that the Chief
           Information Officer (CIO):
           1. Ensure future task orders include the requirement that
              the CSC provide written assurance that it and its major
              subcontractors performed adequate diligence in defining
              all significant business requirements and that the
              proposed new systems will deliver all of the essential
                                                                        Page 7
                          Oversight of the Business Systems
                      Modernization Contractor Needs Improvement

                                    functional and operational capabilities needed by the
                                    systems’ users.
                                 Management’s Response: The CIO has issued a directive
                                 that requires fixed-price contracting for all systems
                                 development and implementation projects. Fixed-price
                                 contracting requires mutually agreed detailed specifications,
                                 which will be addressed at a new checkpoint. The CSC will
                                 be required to provide its written assurance at this
                                 checkpoint.
                                 Office of Audit Comment: We agree with management’s
                                 alternate corrective actions because the new CIO directive
                                 will hold the CSC accountable for performing adequate
                                 diligence in defining all significant business requirements
                                 by providing its written assurance at the new checkpoint.
                                 2. Require the BSMO to conduct an analysis of future
                                    change requests to determine whether the change should
                                    have been part of the contractor’s normal requirements
                                    gathering. Task orders to define business requirements
                                    should be written to hold the CSC responsible for
                                    making such changes at no additional cost to the IRS.
                                 Management’s Response: Management agreed to include
                                 contracting language to the effect that failure to identify any
                                 material requirement is the CSC’s responsibility and any
                                 work to include such a requirement is included under the
                                 agreed price.
                                 The BSMO has not established an effective process to
The Business Systems
                                 ensure the CSC selects and assigns qualified key personnel
Modernization Office Has Not
                                 to the modernization program. We found inconsistencies in
Implemented an Effective
                                 how the IRS project managers approve key personnel
Process to Ensure Qualified
                                 proposed by the CSC. Some IRS project managers
Contractors Work in the
                                 interview personnel that are proposed by the CSC, while
Modernization Program
                                 other IRS officials do not believe they have this authority.
                                 Several of the IRS project managers were unaware of the
                                 three qualifications outlined by the IRS’ April 2002 letter.
                                 In fact, some IRS officials had never seen the qualification
                                 requirements prior to our audit.
                                 The IRS project staffs are not consistently requiring key
                                 personnel to be listed on the task orders because the BSMO
                                 has not issued clear guidance to its project managers or
                                                                                         Page 8
    Oversight of the Business Systems
Modernization Contractor Needs Improvement

           directors regarding who should be considered a key person.
           Not having guidance on how to define a key person and
           what qualifications are required has resulted in
           inconsistencies among the projects’ task orders. For
           example, the current task order for the Infrastructure Shared
           Services (ISS) project lists 12 individuals as key personnel,
           while the task order for the e-Services project lists only
           5 key personnel. On both projects, several additional
           individuals should be listed as key personnel, if the
           definition provided by the IRS is used. By listing these
           individuals in the contract, the CSC must provide resumés
           to indicate their qualifications, and the IRS Contracting
           Officer is authorized to approve or disapprove of any
           replacement of or substitution for these individuals.
           We also noted the three qualifications were not incorporated
           into the current task orders for the four projects12 we
           reviewed. When we inquired as to why these qualification
           requirements were not included in the task orders, one
           project team informed us they had never seen the
           qualification requirements prior to our audit. They also
           informed us the qualification requirements were not
           included in the Program Management Plan (PMP).13 Our
           review of the PMP and interviews with other BSMO
           officials confirmed this explanation. The BSMO did not
           attempt to improve or establish processes at the project level
           to ensure key personnel from the PRIME Alliance met the
           three qualifications required by the IRS.
           BSMO officials informed us they did not implement a
           process to ensure key personnel from the PRIME Alliance
           met the qualifications because they believed the
           qualifications and experience of key personnel had
           improved. They also informed us that selecting and
           assigning qualified personnel is the CSC’s responsibility.
           The BSMO believed no formal changes were needed



           12
              We interviewed the IRS Project Managers or Directors of the ISS (the
           STIR is a sub-project of the ISS), CADE, IFS, and e-Services projects.
           13
              The PRIME Program Management Plan, dated December 13, 2002,
           presents the technical approach and management processes that the CSC
           PRIME Alliance uses to work in the modernization program.
                                                                          Page 9
    Oversight of the Business Systems
Modernization Contractor Needs Improvement

           regarding how IRS project managers approved key
           personnel assigned to their projects.
           The CSC provided us with an Action Plan, which reports it
           completed an assessment of all key PRIME Alliance
           personnel currently assigned to the modernization program.
           The Action Plan indicates the CSC completed an assessment
           of the credentials of the key PRIME Alliance personnel,
           and, as appropriate, training plans were developed to
           increase the expertise of the key personnel. We requested
           the assessment or any documentation that would verify this
           critical action was taken. However, the CSC did not
           provide this documentation for our review.
           To determine whether key personnel from the PRIME
           Alliance met the qualifications and expertise requirements,
           we requested 83 resumés from the IRS project managers on
           the 4 projects we reviewed. However, the IRS does not
           always retain these documents. Therefore, we were able to
           obtain only 13 of the resumés, and our review of this small
           sample was inconclusive. We also requested resumés from
           the CSC, but the CSC did not provide these documents.
           The IRS National Background Investigation Center
           provided academic and employment histories for many key
           individuals from the PRIME Alliance. We reviewed this
           documentation for the same 83 key personnel working in the
           IRS modernization program at the project and program
           levels.14 Although we were unable to determine whether the
           key personnel met the specific qualification requirements
           listed in the IRS’ letter, we found two managers who did not
           have a successful track record as a project manager.
           The effect of not having qualified personnel contributed to
           the latest delay in the CADE project. The rollout of the new
           CADE system was originally estimated to cost $50 million
           and be released in January 2002. The project was delayed,
           and in July 2003 the IRS announced that the first release of
           the CADE system would not occur on August 31, 2003, as

           14
             Program level personnel include individuals from the CSC whose
           responsibilities cut across multiple projects, such as the head of Quality
           Management or an executive in charge of Transition and Strategic
           Planning.
                                                                            Page 10
    Oversight of the Business Systems
Modernization Contractor Needs Improvement

           planned. A new release date has not yet been set. The
           PRIME contractor admitted the subcontractor personnel
           responsible for developing the new system did not have
           experience with large projects. The PRIME contractor also
           admitted that it did not provide adequate oversight of the
           subcontractor to ensure the subcontractor was on track.
           The candor demonstrated by the CSC in this case was
           appreciated by the IRS. However, the concern of not having
           qualified experienced personnel from the PRIME Alliance
           has been ongoing for over a year. The IRS’ selection of the
           CSC in December 1998 was intended to bring commercial
           best practices and technical, consulting, and managerial
           expertise to the program. The success of the BSM program
           depends on obtaining qualified, experienced personnel from
           the CSC and its PRIME Alliance subcontractors.
           Management Actions: The BSMO and the CSC have been
           working to improve the qualifications of PRIME contractor
           staff at the highest levels of the program. Several
           individuals were hired by the PRIME contractor and
           assigned to the IRS modernization program, after BSMO
           officials interviewed them and approved their qualifications.

           Recommendations

           To ensure the CSC is selecting and assigning qualified key
           personnel to the BSM program, we recommend the CIO
           require:
           3. The BSMO to establish procedures to ensure a formal,
              consistent review of the qualifications of key CSC and
              subcontractor personnel that are selected and proposed
              by the CSC to work in the IRS modernization program.
              These procedures should include guidance on how to
              define those individuals from the PRIME Alliance who
              should be classified as key personnel at both the
              program and project levels. The definition of a key
              person provided in the IRS’ April 2002 letter to the CSC
              should be adopted by the BSMO.
           Management’s Response: Management agreed to establish
           standard and uniform procedures across the program to
           identify key personnel and to ensure consistent review of the
                                                                Page 11
    Oversight of the Business Systems
Modernization Contractor Needs Improvement

           qualifications of key CSC and subcontractor personnel who
           are proposed by the CSC to work in any of the key roles.
           However, for fixed-priced contracts, management does not
           believe they should be in a position of vetting the PRIME
           team and will not perform any special personnel reviews.
           Office of Audit Comment: We continue to believe the
           standard and uniform procedures for reviewing key
           personnel proposed by the CSC should be implemented at
           the program level for all projects regardless of the type of
           contract. Delays in fixed-price contracts (e.g., the CADE)
           can have an adverse effect on the BSM program even
           though costs may be capped on specific items. The BSMO
           could help prevent these delays by assuring qualified
           personnel are assigned to projects.
           4. The BSMO to incorporate all key personnel and the
              three qualifications required in the IRS’ April 2002
              letter into the key personnel section of the task orders.
           Management’s Response: Management agreed to work with
           the Office of Procurement to establish an Education and
           Experience Matrix that identifies and provides a correlation
           of the minimum education, experience (in years), and
           responsibilities of the labor categories identified as key
           personnel. The Office of Procurement will add this
           language in each task order, excluding fixed-price contracts.
           5. The PRIME contractor to submit a plan to assure the
              IRS that all currently assigned key CSC and
              subcontractor personnel at the program and project
              levels either (1) have the necessary expertise in the three
              areas required by the IRS’ April 2002 letter, (2) can
              rapidly acquire that expertise at the CSC’s expense, or
              (3) will be replaced in a reasonable time period with
              individuals who have the necessary expertise.
           Management’s Response: Management disagreed with our
           recommendation. They stated that it was not feasible or cost
           effective at this time.
           Office of Audit Comment: Based on the history of BSMO
           projects being delayed and over budget, we believe the
           BSMO should assure qualified personnel are assigned to
           projects to prevent future project delays and cost increases.
                                                                 Page 12
                                Oversight of the Business Systems
                            Modernization Contractor Needs Improvement

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the Business Systems Modernization
Office (BSMO) implemented effective processes to ensure the Business Systems
Modernization (BSM) contractor, Computer Sciences Corporation (CSC),1 addressed and
improved the areas of concern identified by the Internal Revenue Service (IRS) in April 2002.
To accomplish this objective, we:
I.      Determined how the BSMO gained assurance from the CSC that all functional and
        operational requirements and/or capabilities had been defined at a modernization
        project’s milestone 32 exit. (Only two projects managed by the CSC have exited
        milestone 3 since the IRS issued its letter of concern to the CSC in April 2002. The
        Filing and Payment Compliance and Integrated Financial System (IFS) projects were
        included in the scope of this test.)
II.     Determined what process the BSMO followed to ensure changes to the business
        requirements, identified subsequent to a project’s milestone 3, were timely reported to
        IRS management. (Audit tests II, III, and IV were focused around four main projects
        because significant work was conducted on these projects subsequent to their milestone 3
        exit. These four projects were the Customer Account Data Engine, e-Services, IFS, and
        Security and Technology Infrastructure Release (STIR) projects. The STIR is a
        subproject of the Infrastructure Shared Services (ISS) project.)
III.    For modernization projects requiring the use of subcontractors that are part of the CSC’s
        PRIME Alliance,3 determined how the BSMO ensured the CSC selected and assigned
        subcontractors from the PRIME Alliance that have:

        •    A track record of working on successful projects that include business process
             reengineering and business systems implementation in financial services
             organizations in the private and/or public sector.




1
  The CSC was selected as the PRIME contractor to integrate the Internal Revenue Service’s systems modernization
efforts.
2
  Milestone 3 is the term used to refer to the design phase of the IRS systems development life cycle methodology.
This is the work phase in which the new computer system and its requirements are analyzed, designed, and
documented.
3
  The CSC heads an alliance, the PRIME Alliance, of leading technology companies to help modernize the IRS
business and computer systems.

                                                                                                         Page 13
                          Oversight of the Business Systems
                      Modernization Contractor Needs Improvement

      •   Expertise in the more specific business functional areas covered by the project, such
          as collection or customer service.
      •   Either a track record of successful work with the IRS that demonstrates an in-depth
          understanding of IRS operations and the IRS enterprise architecture, or a clear plan to
          acquire such expertise in a manner that is not at the expense of the IRS.
IV.   Determined how the BSMO ensured CSC personnel assigned at the program or project
      level met the above three experience and expertise requirements. (We requested
      83 resumés but received only 13 from the IRS. We reviewed academic and employment
      histories at the IRS National Background Investigation Center for the 83 key PRIME
      Alliance personnel that we identified.)
V.    Determined whether the BSMO obtained a written plan from the CSC to assure the IRS
      that all key CSC personnel assigned to the IRS modernization program, prior to the IRS’
      April 2002 letter, had the requested qualifications.




                                                                                         Page 14
                           Oversight of the Business Systems
                       Modernization Contractor Needs Improvement

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Scott A. Macfarlane, Director
Tammy Whitcomb, Audit Manager
Cari Fogle, Senior Auditor
Michael Garcia, Senior Auditor
Allen Gray, Senior Auditor
Phung-Son Nguyen, Senior Auditor




                                                                                         Page 15
                          Oversight of the Business Systems
                      Modernization Contractor Needs Improvement

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Commissioner, Business Systems Modernization OS:CIO:B
Chief, Information Technology Services OS:CIO:I
Deputy Associate Commissioner, Business Integration OS:CIO:B:BI
Deputy Associate Commissioner, Program Management OS:CIO:B:PM
Deputy Associate Commissioner, Systems Integration OS:CIO:B:SI
Director, Tax Administration Modernization OS:CIO:B:PM:TAM
Acting Director, Portfolio Management Division OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
        Associate Commissioner, Business Systems Modernization OS:CIO:B
        Chief, Information Technology Services OS:CIO:I




                                                                               Page 16
    Oversight of the Business Systems
Modernization Contractor Needs Improvement

                                             Appendix IV


 Management’s Response to the Draft Report




                                                  Page 17
    Oversight of the Business Systems
Modernization Contractor Needs Improvement




                                             Page 18
    Oversight of the Business Systems
Modernization Contractor Needs Improvement




                                             Page 19
    Oversight of the Business Systems
Modernization Contractor Needs Improvement




                                             Page 20
    Oversight of the Business Systems
Modernization Contractor Needs Improvement




                                             Page 21
    Oversight of the Business Systems
Modernization Contractor Needs Improvement




                                             Page 22
    Oversight of the Business Systems
Modernization Contractor Needs Improvement




                                             Page 23
